TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2005



                                            March 2006

                              Reference Number: 2006-30-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 27, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through Fiscal
                             Year 2005 (Audit # 200630021)

 This report presents the results of our review of statistical information that reflects activities of
 the Collection and Examination functions. The overall objective of this review was to provide
 statistical information requested by the Internal Revenue Service (IRS) Oversight Board and
 provide trend analyses of that information.

 Synopsis
 Overall, compliance activities increased and results improved during Fiscal Year (FY) 2005.
 Since FY 2000, the IRS has been reversing many of the downward trends in compliance
 activities that had occurred in prior years. In FY 2005, most of these activities continued to
 increase even though Collection and Examination function field staffing decreased slightly. The
 FY 2006 budget for tax law enforcement provided a 7 percent increase over the FY 2005 budget,
 and both the Collection and Examination functions plan to hire enforcement personnel during
 FY 2006.
 Specifically, the level of compliance activities and the results obtained in many Collection
 function areas in FY 2005 showed a continued increase. The use of levies and seizures
 (collection enforcement tools) was greater in FY 2005 than in FY 2004, but it has not returned to
 pre-1998 levels. It is unlikely the use of seizures will ever return to those pre-1998 levels.
 Enforcement revenue collected increased substantially in FY 2005, and the total dollar amount of
 uncollected liabilities decreased. However, the gap between new delinquent accounts and
 account closures increased slightly.
                       Trends in Compliance Activities Through Fiscal Year 2005




The Collection function collected 15.5 percent more in FY 2005 than in FY 2004, and the
number of taxpayers and the amount owed on accounts in the Queue1 decreased slightly. While
this inventory is now a source of work for Collection Field function employees, a significant
amount may never be worked. In addition, a significant number of accounts were shelved
(removed) from collection inventory and may never be worked. A larger part of these
inventories may be able to be worked in the future. The IRS received authority to use private
collection agencies to work some cases2 and plans to begin testing of this concept later in
FY 2006.
During FY 2005, the overall percentage of tax returns examined increased 22 percent even
though the number of examiners decreased by almost 1 percent. However, the overall
percentage of tax returns examined is still 45 percent lower than it was in FY 1996.
Overall, the number of examinations of individual tax returns increased during FY 2005.
Correspondence examinations accounted for 88 percent of the examinations of individuals with
incomes under $100,000 in FY 2005 and 67 percent of those with incomes of $100,000 and over.
Correspondence examinations are usually not as comprehensive as face-to-face examinations.
Additionally, the dollar yield per hour increased for individual income tax return examinations.
The number of examinations of corporate tax returns increased almost 71 percent in FY 2005,
after decreasing since FY 1997. However, the percentage examined is still almost 59 percent
less than it was than in FY 1997. The total number of tax returns examined decreased from 1 out
of 37 returns filed in FY 1997 to 1 out of 80 returns filed in FY 2005. Large increases in the
percentage of tax returns examined occurred for larger corporations, those with assets of
$10 million and over. Yield indicators for examinations of corporate tax returns improved again
in FY 2005. While there was a decrease in the amount of the tax adjustments on those returns,
there was also a decrease in the hours spent examining those returns for the year. As a result, the
dollar yield per hour increased.
Some of the positive changes noted in this report might be attributed to management emphasis
on the Collection and Examination programs. Over the last few years, the IRS has implemented
reengineering suggestions aimed at increasing the effectiveness of enforcement efforts. In
addition, the Small Business/Self-Employed Division reorganized the Compliance organization
along functional lines. This allowed the Collection and Examination functions to leverage
specialized knowledge and created more direct accountability for accomplishments within each
function.
Despite actions the IRS has taken to improve its enforcement efforts, the Government
Accountability Office regarded enforcement of tax laws (collection of unpaid taxes and earned

1
  The Queue is a holding file for unassigned inventory. Some of the inventory is considered low priority, but other
inventory is placed in the file until it can be assigned as workload for Collection function employees.
2
  American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                                      2
                       Trends in Compliance Activities Through Fiscal Year 2005




income credit noncompliance) as 1 of the 25 high-risk areas in the Federal Government in its
January 2005 update.3 However, as our report points out, the IRS has moved toward reversing
many of the enforcement declines in both the Collection and Examination functions.
Continued effort to improve compliance is important to the integrity of the voluntary compliance
system. The IRS’ recently revised figures show the tax gap4 for Tax Year 2001 to be
$345 billion, which is at the high end of the $312 billion to $353 billion range per year estimate
released last March.5

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Curtis W. Hagan, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-3837.




3
  HIGH-RISK SERIES – An Update (GAO-05-207, dated January 2005).
4
  The tax gap is the difference between what taxpayers should have paid and what they actually paid timely.
5
  IRS Updates Tax Gap Estimates (IRS News Release IR-2006-28, dated February 14, 2006).
                                                                                                              3
                          Trends in Compliance Activities Through Fiscal Year 2005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Overall, Compliance Activities Increased and Results Improved ................Page 2
          Collection Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 3
          Examination Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Detailed Charts of Statistical Information.............................Page 18
          Appendix VI – Related Treasury Inspector General for Tax
          Administration Audit Reports.......................................................................Page 47
                   Trends in Compliance Activities Through Fiscal Year 2005




                                     Background

We initiated this review of nationwide compliance statistics for examination and collection
activities at the request of the Internal Revenue Service (IRS) Oversight Board. Our data
analyses were performed in the Treasury Inspector General for Tax Administration
Chicago, Illinois, office during the period January through February 2006 using national
Management Information System reports. The audit was conducted in accordance with
Government Auditing Standards. However, because we relied on information accumulated by
the IRS in established reports, we did not verify the accuracy of the data.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A Glossary of Terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V. Many of the calculations throughout the report and Appendix V are affected by
rounding. All initial calculations were performed using the actual numbers rather than the
rounded numbers that appear in the report.
Much of the data included in this report update prior Treasury Inspector General for Tax
Administration audit reports on compliance trends. See Appendix VI for a list of these reports.




                                                                                          Page 1
                       Trends in Compliance Activities Through Fiscal Year 2005




                                      Results of Review

Overall, compliance activities increased and results improved during Fiscal Year (FY) 2005.
Since FY 2000, the IRS has been reversing many of the downward trends in compliance
activities that had occurred in prior years in both the Collection and Examination functions. In
FY 2005, most of these activities continued to increase, while others fell slightly from the prior
year.
Even though the IRS has started to reverse many of the downward trends in compliance
activities, the Collection and Examination functions enforcement staffing level is not much
higher than the 10-year low experienced in FY 2003. The combined Collection and Examination
functions enforcement personnel1 declined from approximately 22,200 at the beginning of
FY 1996 to 14,500 at the end of FY 2005, a 35 percent decrease. After increasing 5 percent
during FY 2004, staffing decreased 1 percent during FY 2005. The FY 2006 budget was a
7 percent increase over the FY 2005 budget for tax law enforcement; the Collection and
Examination functions plan to hire enforcement personnel during FY 2006. While the
President’s FY 2007 proposed budget for tax law enforcement is a slight increase over the
FY 2006 budget, the difference would be needed to maintain the same level of service as
provided for in the FY 2006 budget.

Overall, Compliance Activities Increased and Results Improved
For some time, the total number of tax returns filed and the total dollars the IRS received (gross
collections) increased annually with the growing economy. In the past 9 years, the total number
of tax returns filed grew 12 percent, from 155 million in Calendar Year 1995 to 174 million in
Calendar Year 2004. From FYs 1996 to 2001, IRS gross collections grew from $1.49 to
$2.13 trillion but then fell a total of 8 percent during FYs 2002 and 2003, to $1.95 trillion. These
were the first decreases in total revenue since FY 1983. During FY 2004, there was a slight
increase to $2.02 trillion. However, during FY 2005, gross collections increased 12 percent,
reaching a new record high of $2.27 trillion.2
After remaining relatively constant for FYs 1999 through 2002, the amount of enforcement
revenue collected increased 39 percent in the last 3 years. During FY 2005 alone, enforcement
revenue collected increased 10 percent to $47.3 billion.3 This amount (not adjusted for inflation)
is 24 percent higher than the FY 1996 level.4


1
  Collection and Examination function staff located in field offices, excluding management and overhead staff.
2
  See Appendix V, Figure 1.
3
  See Appendix V, Figure 3.
4
  See Appendix V, Figure 2.
                                                                                                            Page 2
                     Trends in Compliance Activities Through Fiscal Year 2005




Despite work the IRS is doing to improve its enforcement efforts, the Government
Accountability Office regarded enforcement of tax laws (collection of unpaid taxes and earned
income credit noncompliance) as 1 of the 25 high-risk areas in the Federal Government in its
January 2005 update.5 The Government Accountability Office noted, “The Commissioner of
Internal Revenue has made strengthening enforcement a high priority, but [the] IRS has not yet
materially reversed enforcement declines.” However, as our report points out, the IRS has
moved toward reversing many of the enforcement declines in both the Collection and
Examination functions.
Continued effort to improve compliance is important to the integrity of the voluntary compliance
system. According to the IRS’ recently revised figures, the tax gap for Tax Year 2001 is
$345 billion, which is at the high end of the estimated $312 billion to $353 billion released last
March.6

Collection Function Compliance Activities Increased and Results
Improved
The Collection Field function (CFf) revenue officer personnel assigned delinquent cases
decreased slightly in FY 2005; there were 3,680 field revenue officers as of the end of the fiscal
year.7 Since the start of FY 1996, revenue officer staffing is down almost 38 percent. Results
from many Collection function activities continued to show improvement during FY 2005, while
the results of other activities were not positive.

Many Collection function operations showed improvement
Many activities showed positive results for the Collection function during FY 2005.
    •   Total dollars collected on Taxpayer Delinquent Accounts (TDA) by the Automated
        Collection System (ACS) and the CFf employees during FY 2005 was $5.8 billion, an
        increase of 15.5 percent from FY 2004.8 The FY 2005 amount is up 62 percent from the
        10-year low that occurred in FY 2000.
    •   The average amount collected per CFf staff year on TDAs increased 113 percent to
        $576,777 in FY 2005, from a low of $271,110 in FY 1999.9 The increase from FY 2004
        to FY 2005 alone was $125,677 (28 percent).




5
  HIGH-RISK SERIES – An Update (GAO-05-207, dated January 2005).
6
  IRS Updates Tax Gap Estimates (IRS News Release IR-2006-28, dated February 14, 2006).
7
  See Appendix V, Figure 5.
8
  See Appendix V, Figure 9.
9
  See Appendix V, Figure 8.
                                                                                           Page 3
                        Trends in Compliance Activities Through Fiscal Year 2005




     •   The amount of gross accounts receivable decreased just over 9 percent during FY 2005,
         the first significant decrease in 10 years.10 This occurred with increases in gross
         collections and enforcement revenue collected.
     •   The number of TDAs closed, excluding shelved accounts, and the number closed by full
         payment increased 5.5 percent and 7.5 percent, respectively, from FY 2004 to FY 2005.11
         The FY 2005 volumes are the highest since FY 1997.
     •   The number of Taxpayer Delinquency Investigations (TDI) closed by the ACS and the
         CFf because delinquent tax returns were received by the IRS increased 25 percent from
         FY 2004 to FY 2005.
     •   As shown in Figure 1, the use of levies and seizures (collection enforcement tools)
         increased substantially from                       Figure 1: Use of Levies and Seizures
         lows experienced in FY 2000.                                      Levies                  Seizures
         Levies increased 1,148 percent             FY 1996                    3,108,926                    10,449
         and seizures increased                     FY 1997                    3,659,417                    10,090
                      12                            FY 1998                    2,503,409                     2,307
         592 percent. However, the                  FY 1999                      504,403                       161
         numbers are still substantially            FY 2000                      219,778                        74
                                                    FY 2001                      674,080                       234
         lower than they were before                FY 2002                    1,283,742                       296
         1998. It is unlikely the IRS’              FY 2003                    1,680,844                       399
         use of seizures will ever return           FY 2004                    2,029,613                       440
                                                    FY 2005                    2,743,577                       512
         to the pre-1998 volumes.             Source: Collection Report 5000-23, Customer Service Activity Report, and
                                                       IRS manual reconciliation of seizure logs.
Some of the positive changes noted in
this section might be attributed to management emphasis on the collection programs. For
example:
     •   Changes recommended by the Collection Reengineering initiatives and subsequent
         revisions to the recommendations have been implemented over the last few years. We
         have issued audit reports on some of these changes including the case prioritization, case
         selection process, and group manager involvement initiatives. See Appendix VI for a list
         of these audit reports.
     •   The Small Business/Self-Employed Division realigned the Compliance organization
         along functional lines at the beginning of FY 2005. This allowed the Collection function
         to leverage specialized knowledge and created a more direct accountability for
         accomplishments within the function.



10
   See Appendix V, Figure 3.
11
   See Appendix V, Figures 14 and 15.
12
   See Appendix V, Figures 17 and 18.
                                                                                                                Page 4
                     Trends in Compliance Activities Through Fiscal Year 2005




Some Collection function operations showed mixed results
Some indicators were not positive for Collection function compliance activity during FY 2005.
     •   There were more TDA receipts than closures during FY 2005, and the gap between TDA
         receipts and TDA closures widened during the fiscal year after narrowing during the prior
         2 fiscal years.13 The gap increased 41 percent to 1,218,465 accounts as of the end of
         FY 2005. Except for FY 2004, this volume is still lower than at the end of any fiscal year
         since FY 1998. However, according to IRS calculations, when all balance-due modules
         are considered (those resolved by sending balance-due notices to the taxpayer and those
         resolved during the TDA process), the IRS has resolved more balance-due modules than
         it received in inventory the last 3 fiscal years.
     •   The total number of liens issued by the CFf and the ACS decreased in FY 2005 by about
         2 percent, which is similar to the decrease in FY 2004.14 The IRS attributes the decrease
         in the total number of liens filed to a policy change that resulted in fewer liens being
         refiled since FY 2003.
         While the number of liens issued by the ACS decreased 6 percent, the number issued by
         the CFf increased 1 percent. However, the total number of liens issued in FY 2005 was
         still 211 percent higher than the low experienced in FY 1999. As we recently noted,
         there should be an increase in the number of liens filed on accounts with large
         balance-due amounts based on procedural changes being made by the Collection
         function.15
An inventory of unassigned collection cases is maintained in the Queue. Except for some slight
dips, the number of taxpayers with unpaid accounts in the Queue and the amount owed on these
accounts steadily increased from FYs 1996 through 2004.16 During FY 2005, both dropped
slightly. The number of taxpayer accounts decreased 3 percent to 607,114. At the same time,
the amount owed decreased 5 percent to $20.3 billion. The number of taxpayers with unfiled tax
returns decreased 15 percent to 716,315 in FY 2005, and there was a large (just over 46 percent)
decrease in the number of these accounts that were shelved or surveyed (removed from
inventory) during the year.17 Although many of the cases in the Queue may be assigned to be
worked, a significant amount may never be worked.
While there were positive results for the Queue inventory during FY 2005, the inventory figures
do not include the millions of tax periods for unpaid accounts and unfiled return investigations


13
   See Appendix V, Figure 12.
14
   See Appendix V, Figure 16.
15
   High-Risk Work Is Selected From the Unassigned Delinquent Account Inventory, but Some Unassigned Accounts
Need Management’s Attention Reference Number 2006-30-030, dated February 2006).
16
   See Appendix V, Figure 13.
17
   See Appendix V, Figures 10 and 11.
                                                                                                     Page 5
                       Trends in Compliance Activities Through Fiscal Year 2005




shelved or surveyed (removed) from Collection function inventory during the last few years.
From FYs 2001 through 2005, approximately 6.2 million TDAs18 (with balance-due amounts
totaling more than $26 billion) were removed from Collection function inventory. During the
same period, more than 14.1 million TDI tax periods were removed. However, the pace for
removal of both TDAs and TDIs slowed during FY 2005. These cases were removed from
Collection function inventory because they were potentially less productive than other available
inventory and may never be worked.
The Collection function is unable to work all of the existing accounts in the Queue with current
staffing, and, as noted above, the number of TDA receipts is outpacing closures. If changes do
not occur, a significant number of cases will continue to not be worked. This reinforces the need
for additional resources to work the cases. As previously noted, the Collection function will be
hiring during FY 2006. The President’s FY 2007 proposed budget has only a slight increase
over the FY 2006 budget for tax law enforcement; the difference is needed to maintain the same
level of service as provided for in the FY 2006 budget. In addition, a larger part of the Queue
inventory may be able to be worked in the future. Legislation was passed19 allowing the IRS to
use private collection agencies to work some cases, and the IRS plans to begin testing the
concept later in FY 2006.

Examination Function Compliance Activities Increased and Results
Improved
Overall, the number of field Examination function personnel that conduct examinations of tax
returns decreased by about 1 percent during FY 2005. The number of revenue agents (RA)
decreased to 9,682, while the number of tax compliance officers (TCO) (formerly referred to as
tax auditors) declined slightly to 981 as of the end of FY 2005.20 However, there has been an
almost 34 percent decrease in the number of examiners in field offices21 since the start of
FY 1996.
Compared to FY 2004, the percentage of tax returns examined increased for every type of tax
return during FY 2005. At the same time, examination yield per hour (the amount of the tax
adjustments on tax returns divided by the number of hours spent examining those returns) also
increased for individual, corporate, and other types of tax returns.22




18
   See Appendix V, Figure 11.
19
   American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004).
20
   See Appendix V, Figure 4.
21
   Examiners in field offices include RAs, TCOs, tax examiners, and revenue officer examiners.
22
   See Appendix V, Figures 20 through 23.
                                                                                                 Page 6
                                       Trends in Compliance Activities Through Fiscal Year 2005




The number of tax returns examined increased, but many examinations were
conducted via correspondence
When analyzing examination coverage rates, it is important to recognize differences in the types
of contacts that are counted in Examination function statistics. Examinations range from an IRS
notice asking for clarification of a single tax return item that appears to be incorrect
(correspondence examination) to a full face-to-face interview and review of the taxpayer’s
records. Face-to-face examinations are generally more comprehensive and time consuming for
the IRS and the taxpayers, and they typically result in higher dollar adjustments to the tax
amounts. Thus, caution should be used when combining statistics from the various Examination
function programs into overall examination rates. In addition, the IRS uses several
computer-matching and automated error-checking routines in the Computing Centers to check
the accuracy of tax returns. The running of these routines often results in adjustments to tax
liabilities; however, these adjustments are not included in the traditional “audit rates” and are not
generally reported separately as enforcement efforts.
The overall percentage of tax returns examined (including face-to-face and correspondence
examinations) increased 22 percent23 from FY 2004 to FY 2005 and has increased 76 percent
since FY 2000. However, the rate is still 45 percent lower than it was in FY 1996. The largest
                                                           increase in the examination rate from
       Figure 2: Percentage Change in Field Examiners and
                          Examinations                     FY 2000 was for individual tax
                                                           returns. Examinations of other types
                            Total Field Examiners                         Total Field Examinations
     10%                                                   of tax returns did not increase as
      0%
                                                           significantly or decreased.
     -10%

     -20%
                                                                                                                 Examination staffing decreased
     -30%

     -40%
                                                                                                                 slightly during FY 2005. However,
     -50%                                                                                                        the FY 2006 budget for tax law
     -60%
                                                                                                                 enforcement is a 7 percent increase
     -70%

     -80%
                                                                                                                 over the FY 2005 budget, and the
        FY 1996   FY 1997   FY 1998     FY 1999     FY 2000   FY 2001   FY 2002   FY 2003    FY 2004   FY 2005
                                                                                                                 Examination function plans to hire
     Source: IRS Data Book and Examination Table 37.
                                                                                                                 during FY 2006.
Figure 2 compares the change in field Examination function staffing to the change in
examinations for all types of tax returns by field employees from the beginning of FY 1996
through FY 2005. The chart line for the number of field examiners does not start at zero because
the number of examiners conducting examinations during FY 1996 decreased by almost
8 percent during the year.



23
  The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                                                                Page 7
                      Trends in Compliance Activities Through Fiscal Year 2005




A continued effort to increase the examination coverage is important to the effectiveness of the
voluntary compliance system. Studies of taxpayer attitudes show continued improvement in
attitudes about cheating on taxes. In 2005, 10 percent of taxpayers felt it was acceptable to cheat
on their tax returns. This is down from 12 percent in 2004 and 17 percent in 2003.24 Also, fear
of examination is an increasing factor in influencing taxpayers to report taxes honestly. In 2002,
54 percent of taxpayers surveyed cited fear of examination as a factor that influenced their
voluntary compliance. This increased to 60 percent in 2004 and 62 percent in 2005.
The following paragraphs summarize examination coverage for various types of tax returns.
     •   Individual Income Tax Examinations – Overall, the number of examinations of all types
         of individual income tax returns decreased from FY 1997 through FY 2000. However,
         the downward trend was reversed in FY 2001 when the number of examinations in most
         categories increased from the prior years. During FY 2000, only 617,765 (1 in 202)
         individual income tax returns were examined. Since then the number examined has
         continuously increased and 1,215,308 (1 in 107) were examined in FY 2005, with
         84 percent of those being done by correspondence.25
            o The number of examinations of individual income tax returns with income under
              $100,000 increased from 518,218 (1 in 221 tax returns filed) in FY 2000 to
              996,100 (1 in 117 tax returns filed) in FY 2005.26 This increase was entirely due
              to an increase in the number of correspondence examinations, which accounted
              for 88 percent of the examinations in this income category. The number of
              face-to-face examinations decreased 2 percent. Only 1 in 976 individual income
              tax returns filed with income under $100,000 received a face-to-face examination,
              while 1 in 133 received a correspondence examination.
            o The number of examinations of individual income tax returns with income of
              $100,000 and over increased from 99,547 (1 in 104 tax returns filed) in FY 2000
              to 219,208 (1 in 64 tax returns filed) in FY 2005.27 Most (86 percent) of this
              increase was due to an increase in the number of correspondence examinations,
              which accounted for 67 percent of the examinations in this income category.
              Only 1 in 193 individual income tax returns filed with income of $100,000 and
              over received a face-to-face examination, while 1 in 95 received a correspondence
              examination.
         The Earned Income Tax Credit issues made up between 67 and 83 percent of the
         individual income tax examinations of tax returns with income under $25,000 for
         FYs 2000 through 2005 and accounted for about 37 percent of the examinations of

24
   IRS Oversight Board 2005 Taxpayer Attitude Survey.
25
   See Appendix V, Figure 24.
26
   See Appendix V, Figures 24 and 25.
27
   See Appendix V, Figures 24 and 25.
                                                                                            Page 8
                       Trends in Compliance Activities Through Fiscal Year 2005




         individuals overall during FY 2005. Excluding examinations in which the Earned
         Income Tax Credit was an issue, the number of examinations of individuals with income
         under $100,000 increased 122 percent from 250,248 in FY 2000 to 555,456 in FY 2005,
         and the number with income of $100,000 and over increased 118 percent from 98,983 in
         FY 2000 to 215,305 in FY 2005.
     •   Corporate Income Tax Examinations – The number of examinations of corporate income
         tax returns (excluding returns for foreign and S Corporations) increased 71 percent in
         FY 2005 after decreasing since FY 1997. Even with the increase in FY 2005, the number
         of examinations has still decreased 59 percent since FY 1997. The total number of tax
         returns examined decreased from 69,295 (1 out of 37 returns filed) in FY 1997 to 28,687
         (1 out of 80 returns filed) in FY 2005.28
         The majority of the increase in examinations during FY 2005 was due to an increase in
         examinations of corporate tax returns with assets of under $10 million. The number of
         those tax returns examined increased 145 percent in FY 2005. During the same period,
         the number of corporate tax returns with assets of $10 million and over increased
         14 percent. However, these larger corporations had a greater increase in the percentage
         of tax returns examined due to the decrease in the number of tax returns filed in this
         category.
     •   S Corporation Return Examinations – The number of S Corporation tax returns examined
         increased 63 percent in FY 2005. Since FY 1998, the number of S Corporation returns
         filed has increased 44 percent while the number of examinations has decreased
         59 percent. From FY 1998 to FY 2005, the number of tax returns examined decreased
         from 1 out of 96 returns filed to 1 out of 338 returns filed.29 The IRS is starting a
         research project to study the compliance of S Corporation entities in which the income
         flows through to other entities. The results of this project could lead to changes in the
         selection of these tax returns for examination.
     •   Partnership Return Examinations – The number of partnership returns examined
         increased 36 percent in FY 2005, resulting in a 30 percent increase since FY 2000. The
         number of returns filed also increased at about the same rate between FYs 2000 and
         2005.30 About 1 out of every 300 returns filed in FYs 2000 and 2005 was examined. The
         IRS had planned to include partnership tax returns in the research project of tax returns in
         which the income flows through to other entities but decided to concentrate on only
         S Corporations as mentioned above. Compliance of partnerships may be studied in a
         future project.


28
   See Appendix V, Figures 37, 38, and 50 for coverage by size of corporation.
29
   See Appendix V, Figures 40 and 50.
30
   See Appendix V, Figures 41 and 50.
                                                                                              Page 9
                      Trends in Compliance Activities Through Fiscal Year 2005




     •   Other Tax Types Examinations (Fiduciary, Employment, Excise, Estate, and Gift
         Taxes) – The overall number of examinations in these 5 classes increased 51 percent
         during FY 2005 and was up 36 percent from FY 2000. The ratio of tax returns examined
         to tax returns filed was higher for each class in FY 2005 compared to FY 2000 except
         fiduciaries. However, the
         ratio for fiduciaries increased              Figure 3: Examination Function Yield Per Hour

         from FY 2004 to FY 2005.31                                  RA - Individual                 TCO - Individual                 RA - Corporate
                                                    $2,200

                                                    $2,000
Examination function dollar                         $1,800
yield per hour improved                             $1,600

                                                    $1,400
The dollar yield per hour improved                  $1,200

for individual and corporate income                 $1,000

tax return examinations during                       $800


FY 2005. Figure 3 shows the impact                   $600

                                                     $400
on the dollar yield per hour from                      FY 1996   FY 1997   FY 1998     FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004    FY 2005


FY 1996 to FY 2005 for RAs and                     Source: Treasury Inspector General for Tax Administration analysis of
                                                   Examination Table 37.
TCOs on individual and corporate tax
returns.
The Examination function dollar yield per hour for individual income tax return examinations
was lower in FY 2004 than in FY 1996.32 However, during FY 2005, yield increased
significantly for RAs and slightly for TCOs, but only the yield for RAs increased above the level
in FY 1996. While the dollar results from examinations per tax return examined fluctuated
during the period, the number of hours used to examine each tax return increased substantially
through FY 2004, then decreased in FY 2005.
The dollar yield per hour spent examining corporate tax returns increased in both FYs 2004 and
2005. The increase for the 2 years was 143 percent; the net increase since FY 1996 was
95 percent.33 The average hours spent examining each tax return increased each year from
FYs 1998 through 2004, then decreased in FY 2005. This decrease in hours outpaced the
decrease in assessments on corporate tax returns during the same time period, resulting in the net
effect of the increase in the dollar yield per hour during FY 2005. While there was an overall
decrease in average assessments per return, there was a large increase in average assessments for
larger corporations (those with assets of $10 million and over).




31
   See Appendix V, Figures 42 through 46 and 50.
32
   See Appendix V, Figures 20 and 23.
33
   See Appendix V, Figure 21.
                                                                                                                                                  Page 10
                   Trends in Compliance Activities Through Fiscal Year 2005




Examination initiatives had a positive impact
Over the last few years, the Small Business/Self-Employed Division has implemented some
changes that could have had a positive impact in some of the areas noted above within the
Examination function. For example:
   •   The Examination function implemented changes from the Examination Reengineering
       initiative. We have issued reports on some of these initiatives including the field
       examination reengineering pilot, office audit redesign pilot, and high income tax strategy.
       See Appendix VI for a list of these audit reports.
   •   As previously noted, the Small Business/Self-Employed Division Compliance functions
       were realigned along functional lines at the beginning of FY 2005. Just as it did for the
       Collection function, the realignment allowed the Examination function to leverage
       specialized knowledge and created a more direct accountability for accomplishments
       within the function.




                                                                                          Page 11
                   Trends in Compliance Activities Through Fiscal Year 2005




                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information requested by the
Internal Revenue Service Oversight Board and trend analyses of that information.
To accomplish our objective, we analyzed information obtained from the Internal Revenue
Service’s management information reports to determine the trends and changes in the major
areas of compliance. Because we relied on information accumulated by the Internal Revenue
Service in established reports, we did not verify its accuracy. The major issues we focused on
included:
   •   Enforcement revenue and gross accounts receivable.
   •   Collection and Examination function staffing.
   •   Collection and Examination function direct time.
   •   Collection function delinquent account inventories and unfiled return investigations.
   •   Collection function enforcement actions (liens, levies, and seizures).
   •   Examination function coverage of individual and business tax returns compared to the
       number of returns filed in each category.
   •   Examination function productivity results for individual and business tax returns.
   •   Other activity resulting in improving the accuracy of filed tax returns and the filing of
       delinquent returns.




                                                                                           Page 12
                  Trends in Compliance Activities Through Fiscal Year 2005




                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Timothy A. Chriest, Senior Auditor




                                                                                       Page 13
                 Trends in Compliance Activities Through Fiscal Year 2005




                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 14
                    Trends in Compliance Activities Through Fiscal Year 2005




                                                                                  Appendix IV

                                 Glossary of Terms

Automated Collection System (ACS) – A telephone contact system through which telephone
assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have not
complied with previous notices.
Automated Lien System – A comprehensive database that prints Notices of Federal Tax Lien
and lien notices, stores taxpayer information, and documents all Federal tax lien activity.
Automated Substitute for Return (ASFR) system – Designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the Internal Revenue Service
(IRS) and historical tax returns information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return; it is used by the IRS to group businesses by the size of
their assets.
Collection Field function (CFf) – The unit in the field offices consisting of revenue officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Computing Center – IRS Computing Centers support tax processing and information
management through a data processing and telecommunications infrastructure.
Corporate Income Tax Returns – U.S. Corporation Income Tax Returns (Form 1120) are
returns used by corporations to report the corporate income tax.
Earned Income Tax Credit – A tax credit for certain people who work and have income under
established limits.
Employment Tax Returns – Various Form 940 return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as Employer’s Federal
Unemployment Taxes and Federal Taxes Withheld.
Enforcement Revenue – This is any tax, penalty, or interest received from a taxpayer as a result
of an IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706) is the form to be filed on certain estates of deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, and corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.

                                                                                           Page 15
                    Trends in Compliance Activities Through Fiscal Year 2005




Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
certain taxes such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709) is used to report transfers subject to the Federal gift taxes and to calculate the tax
due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
Math Error – A program with which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in a tax change.
National Research Project – Research conducted by the IRS to determine filing, payment, and
reporting compliance by taxpayers for different types of taxes.
Partnership Return – U.S. Return of Partnership Income (Form 1065) is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases that the
Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – Employees in the Examination function that conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
Revenue Officer Examiner – Revenue officers that have been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Service Center Collection Branch (SCCB) – Mails the balance-due and return delinquency
notices to taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or Surveyed Cases – These are delinquent unpaid accounts or investigations of unfiled
tax returns that have been taken out of Collection function inventory because they are lower
priority than other available inventory.


                                                                                             Page 16
                   Trends in Compliance Activities Through Fiscal Year 2005




Tax Compliance Officer/Tax Auditor – Employees in the Examination function that conduct
mostly examinations of individual taxpayers through interviews at IRS field offices. The
position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – Employees in field offices that conduct examinations through correspondence.
Taxpayer Delinquent Account (TDA) – A balance-due account of a taxpayer.
Taxpayer Delinquency Investigation (TDI) – An unfiled tax return for a taxpayer.
Tax Gap – The difference between what taxpayers should have paid and what they actually paid
timely.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Total Gross Receipts (TGR) – The categories used for individual income tax returns with Profit
or Loss From Business (Schedule C) or Profit or Loss From Farming (Schedule F) income based
on the total receipts reported.
Underreporter – The Underreporter Program matches items reported on an individual’s income
tax return to information supplied to the IRS from outside sources (such as from employers,
banks, and credit unions) to determine if the taxpayer’s tax return reflected the correct amounts,
ensuring the tax amount is correct.




                                                                                              Page 17
                        Trends in Compliance Activities Through Fiscal Year 2005




                                                                                                              Appendix V

            Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax Since Fiscal Year (FY) 1996.........Page 21
Figure 2 – Change in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1996 .................................Page 21
Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable.................................................Page 22
Figure 4 – Examination Function Staffing at the End of Each Fiscal Year...........Page 22
Figure 5 – Collection Field function (CFf) Staffing at the End of Each
           Fiscal Year ............................................................................................Page 23
Figure 6 – Staff Years Detailed to Customer Service............................................Page 23
Figure 7 – Changes in Direct Time Percentages....................................................Page 24
Figure 8 – Average Dollars Collected per Staff Year on Taxpayer Delinquent
           Accounts (TDA) by the CFf .................................................................Page 24
Figure 9 – Total Dollars Collected on TDAs by the CFf and the Automated
           Collection System (ACS) .....................................................................Page 25
Figure 10 – Delinquent Accounts in the Queue.....................................................Page 25
Figure 11 – Delinquent Accounts and Unfiled Return Investigations Shelved
            or Surveyed Each Year.......................................................................Page 26
Figure 12 – Gap Between New Delinquent Accounts and Account Closures.......Page 26
Figure 13 – Number of Taxpayers and Amounts Owed in the Queue...................Page 27
Figure 14 – Number of Delinquent Accounts Closed, Excluding
            Shelved Accounts ...............................................................................Page 27
Figure 15 – Number of Delinquent Accounts Closed by Full Payment ................Page 28
Figure 16 – Liens Filed by the CFf and ACS ........................................................Page 28
Figure 17 – Levies Issued by the CFf and ACS.....................................................Page 29


                                                                                                                         Page 18
                        Trends in Compliance Activities Through Fiscal Year 2005




Figure 18 – Number of Seizures Made Each Fiscal Year......................................Page 29
Figure 19 – Examination Coverage of All Tax Returns – Percentage Change
            From FY 1996 ....................................................................................Page 30
Figure 20 – Revenue Agent Results on U.S. Individual Income Tax
            Returns (Form 1040), Excluding Training Returns – Percentage
            Change From FY 1996 .......................................................................Page 30
Figure 21 – Revenue Agent Results on Corporate Income Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1996....Page 31
Figure 22 – Revenue Agent Results on Other Types of Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1996....Page 31
Figure 23 – Tax Compliance Officer Results on Forms 1040, Excluding
            Training Returns – Percentage Change From FY 1996 .....................Page 32
Figure 24 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence ..................................................................................Page 32
Figure 25 – Percentage of Forms 1040 Examined Face-to-Face or
            Through Correspondence ...................................................................Page 33
Figure 26 – Number of Forms 1040 Examined by Correspondence
            Examination........................................................................................Page 33
Figure 27 – Number of Forms 1040 Examined by Field Offices (Excluding
            Those With Farm Income) .................................................................Page 34
Figure 28 – Percentage of Forms 1040 Examined.................................................Page 34
Figure 29 – Percentage Examined – Forms 1040 With No Business
            or Farm Income ..................................................................................Page 35
Figure 30 – Examination Coverage of Nonbusiness Forms 1040 –
            Under $100,000 ..................................................................................Page 35
Figure 31 – Examination Coverage of Nonbusiness Forms 1040 – $100,000
            and Over .............................................................................................Page 36
Figure 32 – Examination Coverage of Forms 1040 With Business Income
            (Excluding Farms)..............................................................................Page 36
Figure 33 – Examination Coverage of Forms 1040 With Farm Income ...............Page 37


                                                                                                                        Page 19
                       Trends in Compliance Activities Through Fiscal Year 2005




Figure 34 – Examination Coverage of Corporate Income Tax Returns –
            Percentage Change From FY 1996 ....................................................Page 37
Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Under $10 Million ...............................Page 38
Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Over...........................Page 38
Figure 37 – Examination Coverage of Corporations With Assets of
            Under $10 Million ..............................................................................Page 39
Figure 38 – Examination Coverage of Corporations With Assets of
            $10 Million and Over .........................................................................Page 39
Figure 39 – Examination Coverage of Forms 1120S – Percentage Change
            From FY 1996 ....................................................................................Page 40
Figure 40 – Examination Coverage of Forms 1120S ............................................Page 40
Figure 41 – Examination Coverage of Partnership Income Tax Returns ..............Page 41
Figure 42 – Examination Coverage of Fiduciary Income Tax Returns .................Page 41
Figure 43 – Examination Coverage of Employment Tax Returns.........................Page 42
Figure 44 – Examination Coverage of Excise Tax Returns...................................Page 42
Figure 45 – Examination Coverage of Estate Tax Returns....................................Page 43
Figure 46 – Examination Coverage of Gift Tax Returns.......................................Page 43
Figure 47 – Other Compliance Contacts on Forms 1040 ......................................Page 44
Figure 48 – Other Compliance Contacts – Percentage of Coverage on
            Forms 1040.........................................................................................Page 44
Figure 49 – Numbers and Percentages of Examinations on Forms 1040..............Page 45
Figure 50 – Numbers and Percentages of Examinations on Business
           Tax Returns .........................................................................................Page 46




                                                                                                                      Page 20
                                         Trends in Compliance Activities Through Fiscal Year 2005




Figure 1. Gross Collections by Type of Tax Since Fiscal Year (FY) 1996. Overall gross tax
collections rose in FY 2005 to the highest level of the 10-year analysis. Since a low experienced
in FY 2003, corporate income tax collections increased by 58 percent, individual income tax
collections increased by 12 percent, and employment tax collections increased by 11 percent.
               $2.5
                                                                                                                                                   Excise Tax

               $2.0
                                                                                                                                                   Estate & Gift
                                                                                                                                                   Tax
               $1.5
   Trillions




                                                                                                                                                   Employment
                                                                                                                                                   Tax
               $1.0
                                                                                                                                                   Corporate
                                                                                                                                                   Income Tax
               $0.5
                                                                                                                                                   Individual
                                                                                                                                                   Income Tax
               $0.0
                        6            7            8            9            0            1            2             3            4        05
                  1   99       1   99       1   99       1   99       2   00       2   00       2   00        2   00       2   00       20
               FY           FY           FY           FY           FY           FY           FY            FY           FY           FY
  Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Internal Revenue Service (IRS)
  Data Book.

Figure 2. Change in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1996. Enforcement revenue has been increasing sharply since FY 2002; for
FY 2005, it was 24 percent higher than it was for FY 1996. Gross accounts receivable showed a
sharp decrease in FY 2005, to a level only 19 percent higher than that in FY 1996.
                                           Enforcement Revenue                                                      Gross Accounts Receivable
        35%
        30%                                                                                     28%
                                                                                                                    29%                        32%
                                                                                 22%                                                 29%                 24%
        25%
                                                                   19%
        20%
                                                  14%                                                                                                    19%
        15%
                                   9%
                                                                                                                                                   13%
        10%
               5%
               0%
                                                                                                                                      -1%
          -5%                      -2%
    -10%
                                                  -8%
                                                                                -11%                -11%      -11%
    -15%
                                                                   -14%
    -20%
       FY 1996                FY 1997           FY 1998        FY 1999          FY 2000        FY 2001            FY 2002        FY 2003       FY 2004   FY 2005

  Source: TIGTA analysis of Tax Analysts Document Service Doc. 2005-22508 and Chief Financial Officer
  information.
                                                                                                                                                          Page 21
                                                       Trends in Compliance Activities Through Fiscal Year 2005




Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. After several years of remaining relatively constant, enforcement
revenue collected has increased 39 percent since FY 2002. Gross accounts receivable, after
reaching a 10-year high in FY 2004, decreased just over 9 percent during FY 2005.
                                                            Enforcement Revenue                                 Gross Accounts Receivable
                                    $50                                                                                                                      $290
                                                                                                                                           $285
                                                                                                                $280




                                                                                                                                                                     Gross Accounts Receivable (Billions)
                                    $48                                                                                                            $47.3
                                                                                                                                                             $280
   Enforcement Revenue (Billions)




                                                                                                 $276                           $278
                                    $46
                                                                                                                                                             $270
                                                                                    $264
                                    $44
                                                                                                                                        $43.1       $258     $260
                                                                        $257
                                    $42
                                                                                                                                                             $250
                                                            $246
                                    $40
                                          $38.1     $236                                                                                                     $240
                                    $38
                                                       $37.2                                                                      $37.6
                                                                                                                                                             $230
                                    $36
                                                                   $35.2
                                                                                       $33.8        $33.8              $34.1
                                    $34                                                                                                                      $220
                                           $216
                                                                     $32.9
                                    $32                                                                                                                       $210
                                     FY 1996      FY 1997     FY 1998    FY 1999       FY 2000      FY 2001    FY 2002         FY 2003    FY 2004        FY 2005

 Source: Tax Analysts Document Service Doc. 2005-22508 and Chief Financial Officer information.

Figure 4. Examination Function Staffing at the End of Each Fiscal Year. The numbers in
this chart represent the number of Examination function staff conducting examinations of tax
returns (excludes management and overhead staff). During FY 2005, revenue agent and tax
compliance officer (formerly referred to as tax auditor) staffing decreased, and the combined
total is now almost 35 percent lower than it was at the beginning of FY 1996.
                                                               Revenue Agent                                            Tax Compliance Officer
  14,000

                                           13,857
  12,000                                             12,685
                                                                11,912     11,591
  10,000                                                                               11,014
                                                                                                   10,381
                                                                                                              9,994      9,776                   9,787      9,682
                                                                                                                                       9,244
              8,000

              6,000

              4,000
                                             2,468      2,197      2,011       1,850       1,650      1,393
              2,000                                                                                             1,190      1,148         1,041      987        981

                                      0
                                           FY 1995 FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: TIGTA analysis of Examination Table 37.

                                                                                                                                                               Page 22
                               Trends in Compliance Activities Through Fiscal Year 2005




Figure 5. Collection Field function (CFf) Staffing at the End of Each Fiscal Year. The
number of revenue officers working assigned delinquent cases (excludes management and
overhead staff) decreased slightly during FY 2005 and is almost 38 percent fewer than at the start
of FY 1996.
  6,000
             5,908
                          5,537       5,439
  5,000
                                                    4,989

  4,000                                                               4,354

                                                                                               3,792                                    3,779      3,680
                                                                                 3,601                      3,495        3,499
  3,000


  2,000


  1,000


      0
             95           96           97            98             99            00            01           02           03          04            05
           19           19           19            19             19            20            20           20           20          20            20
      FY           FY           FY           FY             FY             FY            FY           FY           FY          FY            FY

  Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Customer Service. The number of staff years detailed to
customer service dropped off again in FY 2005 and remains lower than the number detailed
during FY 1996.
                                       Collection                                                                 Examination
   700
                                                                                646
   600


   500                                                          468


   400
                                             338                         323
                                                          288
   300

                               183                                                                         174
   200                                 154                                                   167

                                                                                       104
                  88      82
   100      78                                                                                                           60
                                                                                                      43                                30
                                                                                                                    15              3             1 10
     0
           FY 1996       FY 1997       FY 1998        FY 1999          FY 2000         FY 2001       FY 2002      FY 2003      FY 2004          FY 2005

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

                                                                                                                                                         Page 23
                          Trends in Compliance Activities Through Fiscal Year 2005




Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
have both increased the percentage of overall time charged to their tax-related responsibilities
(collecting taxes, securing tax returns not timely filed, and examining tax returns) since FY 2000.
The Examination and Collection functions changed what types of time they capture as direct and
indirect in recent years, including capturing some of the previous indirect time as direct time.
The graph below depicts our recalculation of direct time based on direct time categories from
prior years, to present consistent data for the 10 years included in the graph.
                                     Collection                                                     Examination
  65%


  60%


  55%


  50%


  45%


  40%


  35%


  30%
    FY 1996     FY 1997          FY 1998        FY 1999      FY 2000     FY 2001          FY 2002      FY 2003      FY 2004          FY 2005

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on Taxpayer Delinquent Accounts
(TDA) by the CFf. The average amount collected by the CFf for each staff year has increased
significantly, by almost 28 percent from FY 2004 to FY 2005 and almost 113 percent since
FY 1999.
   $600,000

                                                                                                                               $576,777
   $550,000


   $500,000


   $450,000
                                                                                                                   $451,100

   $400,000                                                                                            $416,450

                           $375,337
   $350,000
                                                                                           $353,755
               $336,959                   $336,758                             $331,603
   $300,000
                                                                   $293,686
   $250,000
                                                       $271,110

   $200,000
                96          97             98           99          00          01          02          03          04          05
              19          19             19           19          20          20          20          20          20          20
         FY          FY             FY           FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.

                                                                                                                                      Page 24
                                                        Trends in Compliance Activities Through Fiscal Year 2005




Figure 9. Total Dollars Collected on TDAs by the CFf and the Automated Collection
System (ACS). Except for FY 2002, when the amount collected by the ACS decreased slightly,
the amounts collected by the ACS and CFf have increased constantly since FY 2000. Since then,
the ACS amount collected increased by just over 67 percent, while the amount collected by the
CFf increased by almost 60 percent.
                                                                    CFf Amount Collected                                               ACS Amount Collected

                                   $7,000,000



                                   $6,000,000                $2,296,880
                                                $2,317,426
                                                                                                                                                                          $1,941,210
   Dollars Collected (Thousands)




                                                                          $2,078,191
                                   $5,000,000
                                                                                                                                                             $1,669,735

                                                                                                                                               $1,515,953
                                   $4,000,000
                                                             $3,984,172                 $1,442,540                 $1,275,111    $1,249,261                               $3,906,915
                                                $3,778,441
                                                                                                      $1,159,473
                                                                          $3,365,075                                                                           $3,392,249
                                   $3,000,000
                                                                                                                                                $3,083,984
                                                                                                                   $2,677,226    $2,746,646
                                                                                       $2,477,034
                                   $2,000,000                                                        $2,447,824



                                   $1,000,000



                                           $0
                                                FY 1996      FY 1997      FY 1998       FY 1999       FY 2000       FY 2001       FY 2002      FY 2003       FY 2004        FY 2005

  Source: Collection Report 5000-2.

Figure 10. Delinquent Accounts in the Queue. The number of taxpayers (“TPs” in the chart)
with Taxpayer Delinquency Investigations (TDI) in the Queue inventory increased from
FY 1996 to FY 2000, with significant spikes during FYs 1999 and 2000, then decreased to
remain at relatively constant levels. Except for a couple of slight dips, the number of taxpayers
with TDAs increased from FYs 1996 to 2004, then dropped slightly during FY 2005. However,
from FY 1999 through FY 2005, the IRS removed a large number of cases from the Queue that
were considered to be potentially less productive than other Queue inventory (see Figure 11).
                                                                    TPs With TDAs                                                          TPs With TDIs
  2,000,000

  1,800,000                                                                                          1,876,629

  1,600,000

  1,400,000                                                                         1,282,919

  1,200,000
                                                                                                                                               959,075
  1,000,000
                                                                                                                   821,188                                    838,090
                                                                                                                                 767,459
                  800,000                                                                                                                                                   716,315

                  600,000
                                                          435,337      456,711                                                                           623,477        607,114
                                                                                                                                           591,372
                                                                                                537,781      542,406         514,915
                  400,000                    326,118
                                                       425,780      407,210      445,877

                  200,000                 317,865

                                      0
                                           FY 1996      FY 1997      FY 1998      FY 1999        FY 2000         FY 2001        FY 2002       FY 2003       FY 2004       FY 2005

  Source: Collection Reports 5000-2 and 5000-4.

                                                                                                                                                                               Page 25
                                    Trends in Compliance Activities Through Fiscal Year 2005




Figure 11. Delinquent Accounts and Unfiled Return Investigations Shelved or Surveyed
Each Year. Since FY 1999, the IRS has removed millions of unpaid tax periods and unfiled
return investigations from the Queue inventory. However, the total volume shelved or surveyed
decreased significantly (by almost 39 percent) from FY 2004 to FY 2005.
                                                            TDAs                                                                  TDIs
                8,000,000

                                                                                                      7,099,437
                7,000,000


                6,000,000


                5,000,000
  Tax Periods




                4,000,000


                3,000,000
                                                                                                                                                2,197,857
                                                                                    1,942,929                       1,749,590    1,875,353
                                                                                                1,720,683
                2,000,000
                                                                                                            1,567,023                                        1,178,853
                                                                              981,255
                                                                                           931,011                      1,089,580            1,020,503
                1,000,000                                                790,729                                                                         788,083
                                142,891       42,956
                                                                46,349
                            7,737     3,705            13,702
                       0
                            FY 1996       FY 1997        FY 1998          FY 1999       FY 2000      FY 2001      FY 2002       FY 2003       FY 2004       FY 2005

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between New Delinquent Accounts and Account Closures. The gap
between unpaid account receipts and closures increased for FY 2005 after decreasing in
FYs 2003 and 2004. The number of receipts has been greater than the number of closures each
year after FY 1997. The closures shown here do not include the unpaid accounts shelved, shown
above in Figure 11.
                                                       TDA Receipts                                                         TDA Closures
  7,000,000


  6,000,000


  5,000,000


  4,000,000


  3,000,000


  2,000,000


  1,000,000


                    0
                   FY 1996      FY 1997        FY 1998            FY 1999           FY 2000       FY 2001         FY 2002       FY 2003          FY 2004           FY 2005

  Source: TIGTA analysis of Collection Report 5000-2.

                                                                                                                                                                    Page 26
                                                    Trends in Compliance Activities Through Fiscal Year 2005




Figure 13. Number of Taxpayers and Amounts Owed in the Queue. The number of
taxpayers with unpaid accounts in the Queue inventory decreased by almost 3 percent, while the
amount owed decreased by just over 5 percent from FY 2004 to FY 2005.
                                                          Amount Owed                                      Number of Taxpayers
                            $35                                                                                                                      650,000


                            $30                                                                                                                      600,000
   Amount Owed (Billions)




                            $25                                                                                                                      550,000




                                                                                                                                                               Number of Taxpayers
                            $20                                                                                                                      500,000


                            $15                                                                                                                      450,000


                            $10                                                                                                                      400,000


                             $5                                                                                                                      350,000


                            $0                                                                                                                    300,000
                            FY 1996        FY 1997      FY 1998     FY 1999     FY 2000     FY 2001      FY 2002     FY 2003     FY 2004     FY 2005

  Source: Collection Report 5000-2.

Figure 14. Number of Delinquent Accounts Closed, Excluding Shelved Accounts. The
number of delinquent unpaid accounts closed by the ACS and CFf increased again in FY 2005,
while the number closed from the Queue and Service Center Collection Branch (SCCB)
inventory decreased slightly.
                                                        ACS                                 CFf                                 Queue & SCCB
  3,500,000
                                                  3,201,808
                                  3,129,974
                                                                                                                                                3,052,010
  3,000,000                                                                                                                         2,922,041
                                                              2,814,025

                                                                                                                        2,555,754
  2,500,000


                                                                                                  2,013,562 1,975,215
  2,000,000                                                               1,873,520 1,819,424
                                      1,696,008     1,676,949

  1,500,000                                                     1,327,863

                                                                                                                                                   1,080,980
                                                                             951,984                                                     955,887
  1,000,000                                                                                                                  880,939
                                                                                         771,455     757,392     724,430

                                                                                                                                           469,695     451,775
               500,000                                                                                             314,124     370,217
                                                                                                       269,855
                                          164,731      133,905     146,807     128,930     180,991

                                  0
                                       FY 1996      FY 1997      FY 1998     FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004     FY 2005

  Source: TIGTA analysis of Collection Report 5000-2.

                                                                                                                                                         Page 27
                                Trends in Compliance Activities Through Fiscal Year 2005




Figure 15. Number of Delinquent Accounts Closed by Full Payment. The total number of
accounts closed by full payment increased by 7.5 percent in FY 2005. Since FY 2002, there has
been a steady increase in the number of accounts closed by full payment by the ACS and the
CFf.
                                   ACS                                        CFf                                    Queue & SCCB
  1,000,000
              901,145         893,620
   900,000                                                                                                                              847,537
                                            793,958                                                                         784,124
   800,000                                                                            742,563                  723,659
                                                          688,622       679,872
   700,000                                                                                        644,301

   600,000
                  481,409       494,567
   500,000
                                              398,718                                                                                       390,521
   400,000                                                                                                                    346,650
                                                                                                                 330,934
                                                            275,981                                  269,139
   300,000                                                                              239,503
                                                                          235,797
                                                                                                                                 193,564      185,552
   200,000                                                                                             137,179    153,839
                                                                                           105,609
   100,000                                       49,798                      64,312
                     35,200        42,702                      38,227

         0
                  FY 1996       FY 1997       FY 1998       FY 1999       FY 2000       FY 2001      FY 2002     FY 2003      FY 2004      FY 2005

  Source: TIGTA analysis of Collection Report 5000-2.

Figure 16. Liens Filed by the CFf and ACS. The total number of liens filed in FY 2005
decreased by just over 2 percent. This follows a similar drop in FY 2004. The IRS attributes
this decrease to a policy change that resulted in fewer liens being refiled since FY 2003. During
FY 2005, the number of liens filed by the ACS decreased 6 percent, but those filed by the CFf
increased 1 percent.
                                                               CFf                                               ACS
    800,000

    700,000

                    261,027
    600,000

    500,000
                                  176,926                                                                                     256,595
                                                                                                                 253,053                   241,805
    400,000
                                                                                                     245,734
                                                99,402                                  211,367
    300,000
                    489,198
    200,000                                                   23,180       141,202
                                  366,687
                                                283,353                                                          291,263     277,797       281,082
                                                                                        214,799      236,775
    100,000
                                                             144,687       146,315

              0
                    FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: Collection Report 5000-23 and the Automated Lien System.

                                                                                                                                                  Page 28
                             Trends in Compliance Activities Through Fiscal Year 2005




Figure 17. Levies Issued by the CFf and ACS. An increasing number of levies have been
issued by the ACS and the CFf since FY 2000. Compared to FY 2004, the total number of levies
issued during FY 2005 increased by slightly over 35 percent.
                                                     CFf                                                   ACS
  4,000,000

  3,500,000                    2,968,489



  3,000,000      2,409,891

                                                                                                                                           2,535,063
  2,500,000
                                             2,029,928

  2,000,000
                                                                                                                               1,861,467


  1,500,000                                                                                                        1,538,094


                                                                                                      1,140,487
  1,000,000                                                                                533,405
                                                            397,656
                                                                            144,881
    500,000                  690,928
                699,035                    473,481   106,747       74,897             140,675    143,255      142,750     168,146      208,514
           0
                FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: Collection Report 5000-23 and Customer Service Activity Report.

Figure 18. Number of Seizures Made Each Fiscal Year. The number of seizures made in
FY 2005 continued the upward trend that has occurred since FY 2000, but it is still only about
5 percent of the seizures made in FY 1996.
  12,000

               10,449
                             10,090
  10,000



   8,000



   6,000



   4,000

                                            2,307
   2,000

                                                                                                      296           399         440          512
                                                          161           74                234
       0
           FY 1996        FY 1997          FY 1998       FY 1999      FY 2000          FY 2001       FY 2002      FY 2003      FY 2004     FY 2005

  Source: Collection Report 5000-23 and IRS manual reconciliation of seizure logs.

                                                                                                                                                 Page 29
                     Trends in Compliance Activities Through Fiscal Year 2005




Figure 19. Examination Coverage of All Tax Returns – Percentage Change From FY 1996.
While the examination coverage of tax returns is still below the level in FY 1998, the growth in
examination coverage again outpaced the growth in returns filed during FY 2005.
                            Returns Filed                                   Returns Examined
   20%

   10%

    0%

  -10%

  -20%

  -30%

  -40%

  -50%

  -60%

  -70%
     FY 1996    FY 1997   FY 1998      FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004       FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 20. Revenue Agent Results on U.S. Individual Income Tax Returns (Form 1040),
Excluding Training Returns – Percentage Change From FY 1996. The hours per return
decreased and dollars per return increased significantly, resulting in an increase of 194 percent in
dollars per hour for FY 2005.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
  350%

  300%

  250%

  200%

  150%

  100%

   50%

    0%

   -50%
      FY 1996   FY 1997   FY 1998      FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004       FY 2005

  Source: TIGTA analysis of Examination Table 37.

                                                                                                           Page 30
                     Trends in Compliance Activities Through Fiscal Year 2005




Figure 21. Revenue Agent Results on Corporate Income Tax Returns, Excluding Training
Returns – Percentage Change From FY 1996. The hours and dollars per return both decreased
during FY 2005. However, the decrease in hours per return was substantial enough that the
combined effect resulted in an increase in dollars per hour of just over 24 percent for FY 2005.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
  300%


  250%


  200%


  150%


  100%


   50%


    0%


   -50%
      FY 1996   FY 1997   FY 1998      FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004       FY 2005

  Source: TIGTA analysis of Examination Table 37.

Figure 22. Revenue Agent Results on Other Types of Tax Returns, Excluding Training
Returns – Percentage Change From FY 1996. The hours and dollars per return both decreased
during FY 2005. However, since the hours per return decrease was greater, the combined effect
was that dollars per hour increased by almost 7 percent for FY 2005.
                    Hours Per Return                 Dollars Per Hour                Dollars Per Return
  250%



  200%



  150%



  100%



   50%



    0%
     FY 1996    FY 1997   FY 1998      FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004       FY 2005

  Source: TIGTA analysis of Examination Table 37.



                                                                                                           Page 31
                            Trends in Compliance Activities Through Fiscal Year 2005




Figure 23. Tax Compliance Officer Results on Forms 1040, Excluding Training Returns –
Percentage Change From FY 1996. The hours and dollars per return both decreased during
FY 2005. However, the decrease in hours per return was significant. Therefore, the combined
effect was that dollars per hour increased by almost 21 percent for FY 2005.
                           Hours Per Return                                      Dollars Per Hour                                Dollars Per Return
  200%



  150%



  100%



   50%



    0%



   -50%
      FY 1996        FY 1997          FY 1998        FY 1999          FY 2000           FY 2001          FY 2002           FY 2003     FY 2004        FY 2005

  Source: TIGTA analysis of Examination Table 37.

Figure 24. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face examinations of individuals increased by just over 13 percent,
and those conducted through correspondence increased by just over 22 percent in FY 2005. A
slightly greater percentage of change occurred for individuals with income of under $100,000;
those increased over 15 percent for face-to-face examinations and almost 24 percent for
correspondence examinations.
  1,400,000


  1,200,000                                                                                                                            Face-to-Face -
                                                                                                                                       Under $100,000

  1,000,000


    800,000                                                                                                                            Correspondence -
                                                                                                                                       Under $100,000

    600,000


    400,000                                                                                                                            Face-to-Face -
                                                                                                                                       $100,000 & Over

    200,000


          0                                                                                                                            Correspondence -
                                                                                                                                       $100,000 and Over
                96          97          98          99          00          01          02          03          04          05
              19          19          19          19          20          20          20          20          20          20
         FY          FY          FY          FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of Examination Table 37.

                                                                                                                                                       Page 32
                      Trends in Compliance Activities Through Fiscal Year 2005




Figure 25. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2005, the coverage rate for face-to-face examinations of nonbusiness and business
individual income tax returns increased for many of the income categories. The overall
face-to-face coverage rate for individual income tax returns with farm income decreased. The
coverage rate for correspondence examinations of individual income tax returns increased for all
categories except for nonbusiness Forms 1040 with high income ($100,000 and over). However,
the rate increased substantially for business Forms 1040 with high income, resulting in a slight
increase in correspondence examinations of high-income individual taxpayers overall.
                 Face-to-Face - Income Under $100,000            Face-to-Face - Income $100,000 & Over
                 Correspondence - Income Under $100,000          Correspondence - Income $100,000 & Over
  2.50%


  2.00%


  1.50%


  1.00%


  0.50%


  0.00%
      FY 1996    FY 1997    FY 1998    FY 1999    FY 2000   FY 2001   FY 2002   FY 2003    FY 2004      FY 2005

  Source: TIGTA analysis of Examination Table 37.

Figure 26. Number of Forms 1040 Examined by Correspondence Examination. During
FY 2005, the number of examinations conducted by correspondence examination increased for
all categories of tax returns except nonbusiness with income over $100,000. The fluctuation in
examinations of nonbusiness tax returns with income under $25,000 was largely based on
fluctuations in the number of Earned Income Tax Credit examinations.
                      All Nonbusiness < $25,000                       All Nonbusiness $25,000 or More
                      All Business < $25,000                          All Business $25,000 or More
            809,604
  600,000


  500,000


  400,000


  300,000


  200,000


  100,000


        0
       FY 1996    FY 1997    FY 1998   FY 1999    FY 2000   FY 2001   FY 2002   FY 2003    FY 2004      FY 2005

  Source: TIGTA analysis of IRS Data Book.

                                                                                                         Page 33
                                Trends in Compliance Activities Through Fiscal Year 2005




Figure 27. Number of Forms 1040 Examined by Field Offices (Excluding Those With
Farm Income). Field offices conduct a combination of face-to-face and correspondence
examinations. During FY 2005, the number of examinations conducted by field offices
increased for all categories of tax returns.
  275,000
  250,000                                                                                                                         All Nonbusiness
                                                                                                                                  < $25,000
  225,000
  200,000                                                                                                                         All Nonbusiness
                                                                                                                                  $25,000 - $99,999
  175,000
  150,000                                                                                                                         All Nonbusiness
                                                                                                                                  $100,000 & Over
  125,000
  100,000                                                                                                                         All Business
   75,000                                                                                                                         < $25,000

   50,000
                                                                                                                                  All Business
   25,000                                                                                                                         $25,000 - $99,999

          0
                                                                                                                                  All Business
          96          97          98          99          00          01          02          03          04          05          $100,000 & Over
        19          19          19          19          20          20          20          20          20          20
   FY          FY          FY          FY          FY          FY          FY          FY          FY          FY

  Source: TIGTA analysis of IRS Data Book.

Figure 28. Percentage of Forms 1040 Examined. This shows the comparison in examination
rates (total correspondence and face-to-face) for tax returns with business or farm income and
those with incomes of under $100,000 and $100,000 and over without business or farm income.
During FY 2005, the percentage examined decreased for Forms 1040 with farm income and for
those with incomes of $100,000 and over on which the income was not from a business or farm.
              Form 1040 Under $100,000 No Schedule C or F                                     Form 1040 $100,000 & Over No Schedule C or F
              Form 1040 With Schedule C Business Income                                       Form 1040 With Schedule F Farm Income
  4.0%

  3.5%

  3.0%

  2.5%

  2.0%

  1.5%

  1.0%

  0.5%

  0.0%
     FY 1996         FY 1997           FY 1998      FY 1999           FY 2000          FY 2001          FY 2002        FY 2003   FY 2004    FY 2005

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                             Page 34
                                              Trends in Compliance Activities Through Fiscal Year 2005




Figure 29. Percentage Examined – Forms 1040 With No Business or Farm Income. The
percentage of Forms 1040 examined increased during FY 2005 for all income categories except
those with income of $100,000 and over. The increases were largely due to increases in the
percentage of Forms 1040 examined by compliance center employees by correspondence.
                                   Form 1040A Under $25,000             Form 1040 Under $25,000              Form 1040 $25,000-49,999
                                   Form 1040 $50,000-99,999             Form 1040 $100,000 & Over
   3.0%


   2.5%


   2.0%


   1.5%


   1.0%


   0.5%


   0.0%
      FY 1996                            FY 1997   FY 1998    FY 1999    FY 2000    FY 2001       FY 2002   FY 2003    FY 2004    FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 30. Examination Coverage of Nonbusiness Forms 1040 – Under $100,000. The
number of nonbusiness tax returns filed with income of under $100,000 dropped off slightly in
FYs 2004 and 2005 after steadily increasing since FY 1996. During FY 2005, the examination
coverage rate for these returns increased by just over 20 percent. This increase was almost
entirely due to an increase in compliance center correspondence examinations, which accounted
for slightly over 83 percent of the increase in the number of examinations in this category.
                                                   Returns Filed                                       Returns Examined
                               120,000                                                                                           2,400
                                                                                                                                         Returns Examined (Thousands)




                               100,000                                                                                           2,000
   Returns Filed (Thousands)




                                80,000                                                                                           1,600


                                60,000                                                                                           1,200


                                40,000                                                                                           800


                                20,000                                                                                           400


                                    0                                                                           0
                                   FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                   Page 35
                                               Trends in Compliance Activities Through Fiscal Year 2005




Figure 31. Examination Coverage of Nonbusiness Forms 1040 – $100,000 and Over. The
number of nonbusiness tax returns filed with income of $100,000 and over increased slightly in
FY 2005 after being relatively constant since FY 2002. During FY 2005, the examination
coverage rate for these returns decreased by just over 14 percent. While the number of
examinations by field employees increased slightly, there was a large decrease in the number of
correspondence examinations conducted by compliance center employees in this category.
                                                    Returns Filed                                       Returns Examined
                                12,000                                                                                              240




                                                                                                                                          Returns Examined (Thousands)
                                10,000                                                                                              200
    Returns Filed (Thousands)




                                 8,000                                                                                              160


                                 6,000                                                                                              120


                                 4,000                                                                                              80


                                 2,000                                                                                              40


                                     0                                                                                               0
                                    FY 1996   FY 1997     FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 32. Examination Coverage of Forms 1040 With Business Income (Excluding
Farms). During FY 2005, the total number of individual income tax returns filed with business
income increased, as did the percentage examined in each of the categories. While there were
increases in examination coverage by both field and compliance center employees, compliance
center employees who conduct correspondence examinations accounted for a larger portion of
the increases in each of the categories.
                                    Sch C Returns Filed        TGR Under $25,000         TGR $25,000-$99,999          TGR $100,000 & Over

                                10,000                                                                                            5.0%
   Returns Filed (Thousands)




                                 8,000                                                                                            4.0%
                                                                                                                                                Percentage Examined




                                 6,000                                                                                            3.0%


                                 4,000                                                                                            2.0%


                                 2,000                                                                                            1.0%


                                    0                                                                           0.0%
                                   FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: TIGTA analysis of IRS Data Book. TGR = total gross receipts.

                                                                                                                                      Page 36
                                              Trends in Compliance Activities Through Fiscal Year 2005




Figure 33. Examination Coverage of Forms 1040 With Farm Income. The number of
Forms 1040 filed with farm income increased slightly in FY 2005. There was a slight increase in
examinations of Forms 1040 with farm income by compliance center employees and a large
decrease in those examinations by field employees. This, combined with the increase in filing of
these tax returns, resulted in a 41 percent decrease in examination coverage in this category.
                                                    Returns Filed                                  Returns Examined
                               800                                                                                               40

                               700                                                                                               35




                                                                                                                                       Returns Examined (Thousands)
   Returns Filed (Thousands)




                               600                                                                                               30

                               500                                                                                               25

                               400                                                                                               20

                               300                                                                                               15

                               200                                                                                               10

                               100                                                                                               5

                                 0                                                                                                0
                                FY 1996   FY 1997   FY 1998    FY 1999   FY 2000   FY 2001    FY 2002    FY 2003   FY 2004   FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 34. Examination Coverage of Corporate Income Tax Returns – Percentage Change
From FY 1996. The number of corporate tax returns (excluding U.S. Income Tax Return for an
S Corporation (Form 1120S) and U.S. Income Tax Return for a Foreign Corporation
(Form 1120-F)) filed continued the steady decrease during FY 2005. The percentage of tax
returns examined increased for all corporate tax return categories. Overall, 1 in 80 corporate tax
returns was examined in FY 2005.
                                                      Returns Filed                                 Returns Examined
                 40%


                 20%


                               0%


       -20%


       -40%


       -60%


       -80%


  -100%
      FY 1996                             FY 1997   FY 1998    FY 1999   FY 2000    FY 2001    FY 2002     FY 2003    FY 2004   FY 2005

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                  Page 37
                    Trends in Compliance Activities Through Fiscal Year 2005




Figure 35. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of Under $10 Million. During FY 2005, the examination coverage rate for corporate tax
returns with no balance sheet or asset classes of under $10 million increased by 151 percent.
  18%
                                                                                      Assets
  16%                                                                                 $5M <
                                                                                      $10M
  14%
                                                                                      Assets
                                                                                      $1M <
  12%                                                                                 $5M

  10%                                                                                 Assets
                                                                                      $250,000
   8%                                                                                 < $1M

   6%                                                                                 Assets
                                                                                      Under
                                                                                      $250,000
   4%
                                                                                      No
   2%                                                                                 Balance
                                                                                      Sheet
   0%
    FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 36. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of $10 Million and Over. During FY 2005, the examination coverage rate for corporate
tax returns with assets of $10 million and over increased by 20 percent.
  60%
                                                                                      Assets
                                                                                      $250M &
  50%                                                                                 Over


  40%                                                                                 Assets
                                                                                      $100M <
                                                                                      $250M
  30%
                                                                                      Assets
                                                                                      $50M <
  20%                                                                                 $100M


  10%                                                                                 Assets
                                                                                      $10M <
                                                                                      $50M
   0%
    FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

  Source: TIGTA analysis of IRS Data Book.


                                                                                          Page 38
                                                 Trends in Compliance Activities Through Fiscal Year 2005




Figure 37. Examination Coverage of Corporations With Assets of Under $10 Million. The
number of corporate tax returns filed with assets of under $10 million dropped by almost
3 percent during FY 2005, but the number of tax returns examined increased 145 percent.
                                                        Returns Filed                                     Returns Examined
                               3,000                                                                                                  150




                                                                                                                                            Returns Examined (Thousands)
                               2,500                                                                                                  125
   Returns Filed (Thousands)




                               2,000                                                                                                  100


                               1,500                                                                                                  75


                               1,000                                                                                                  50


                                500                                                                                                   25


                                     0                                                                                                 0
                                    FY 1996   FY 1997     FY 1998    FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 38. Examination Coverage of Corporations With Assets of $10 Million and Over.
During FY 2005, the number of corporate tax returns filed with assets of $10 million and over
decreased almost 5 percent, while the number of returns examined increased almost 14 percent.
                                                        Returns Filed                                     Returns Examined
                               70                                                                                                      35


                               60                                                                                                      30
                                                                                                                                            Returns Examined (Thousands)
   Returns Filed (Thousands)




                               50                                                                                                      25


                               40                                                                                                      20


                               30                                                                                                      15


                               20                                                                                                      10


                               10                                                                                                      5


                                0                                                                                                      0
                               FY 1996    FY 1997       FY 1998     FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                       Page 39
                                              Trends in Compliance Activities Through Fiscal Year 2005




Figure 39. Examination Coverage of Forms 1120S – Percentage Change From FY 1996.
After decreasing each year since FY 1998, the percentage of Forms 1120S examined increased
56 percent during FY 2005. Additional examinations of Forms 1120S are expected during the
next few years as they are part of an ongoing National Research Project studying tax compliance.
                                                       Returns Filed                               Returns Examined
    80%

    60%

    40%

    20%

                    0%

  -20%

  -40%

  -60%

  -80%
     FY 1996                           FY 1997       FY 1998    FY 1999   FY 2000   FY 2001    FY 2002    FY 2003    FY 2004    FY 2005

  Source: TIGTA analysis of IRS Data Book.

Figure 40. Examination Coverage of Forms 1120S. The number of Form 1120S tax returns
filed has increased at an average rate of about 150,000 per year since FY 1996, to just over
3.5 million in FY 2005. During FY 2005, the number of examinations increased, but only about
1 out of every 338 Form 1120S returns was examined.
                                                     Returns Filed                                  Returns Examined
                               5,000                                                                                             30
                                                                                                                                       Returns Examined (Thousands)


                               4,000                                                                                             25
   Returns Filed (Thousands)




                               3,000                                                                                             20



                               2,000                                                                                             15



                               1,000                                                                                             10



                                  0                                                                                               5
                                 FY 1996   FY 1997    FY 1998   FY 1999   FY 2000   FY 2001   FY 2002    FY 2003   FY 2004   FY 2005

  Source: IRS Data Book.

                                                                                                                                  Page 40
                                              Trends in Compliance Activities Through Fiscal Year 2005




Figure 41. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed has increased at an average rate of about 110,000 per year since
FY 1996, to just over 2.5 million in FY 2005. During FY 2005, the number of returns examined
increased by just over 36 percent, but only 1 out of every 300 partnership returns was examined.
                                                     Returns Filed                                   Returns Examined
                               3,000                                                                                              15




                                                                                                                                           Returns Examined (Thousands)
                               2,500                                                                                              13
   Returns Filed (Thousands)




                               2,000                                                                                              10


                               1,500                                                                                              8


                               1,000                                                                                              5


                                500                                                                                               3


                                  0                                                                                                0
                                 FY 1996   FY 1997    FY 1998    FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004    FY 2005

  Source: IRS Data Book.

Figure 42. Examination Coverage of Fiduciary Income Tax Returns. During FY 2005, the
number of income tax returns filed by estates and trusts increased slightly, but the number of tax
returns examined increased by almost 49 percent. Only 1 out of every 565 fiduciary income tax
returns was examined.
                                                     Returns Filed                                   Returns Examined
                               4,000                                                                                                  10
                                                                                                                                               Returns Examined (Thousands)
   Returns Filed (Thousands)




                               3,000                                                                                                  8




                               2,000                                                                                                  6




                               1,000                                                                                                  4




                                  0                                                                                                 2
                                 FY 1996   FY 1997    FY 1998    FY 1999   FY 2000   FY 2001   FY 2002   FY 2003    FY 2004    FY 2005

  Source: IRS Data Book.

                                                                                                                                   Page 41
                                                Trends in Compliance Activities Through Fiscal Year 2005




Figure 43. Examination Coverage of Employment Tax Returns. During FY 2005, the
number of employment tax returns filed increased by just over 1 percent, but the number of tax
returns examined increased by almost 91 percent. One out of every 904 employment tax returns
was examined.
                                                      Returns Filed                                 Returns Examined
                                 35.0                                                                                           80


                                 30.0                                                                                           70




                                                                                                                                      Returns Examined (Thousands)
   Returns Filed (Millions)




                                 25.0                                                                                           60


                                 20.0                                                                                           50


                                 15.0                                                                                           40


                                 10.0                                                                                           30


                                  5.0                                                                                           20


                                  0.0                                                                                            10
                                  FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

  Source: IRS Data Book.

Figure 44. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed remained relatively steady, but the number of returns examined increased by almost
32 percent during FY 2005.
                                                      Returns Filed                                 Returns Examined
                                 900                                                                                             45

                                 800                                                                                             40
                                                                                                                                      Returns Examined (Thousands)
     Returns Filed (Thousands)




                                 700                                                                                             35

                                 600                                                                                             30

                                 500                                                                                             25

                                 400                                                                                             20

                                 300                                                                                             15

                                 200                                                                                             10

                                 100                                                                                             5

                                   0                                                                                             0
                                  FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

  Source: IRS Data Book.

                                                                                                                                 Page 42
                                               Trends in Compliance Activities Through Fiscal Year 2005




Figure 45. Examination Coverage of Estate Tax Returns. During FY 2005, the number of
estate tax returns filed decreased by almost 15 percent, and the number of returns examined
decreased by almost 6 percent. One out of every 12 estate tax returns was examined.
                                                    Returns Filed                                     Returns Examined
                               130                                                                                               65
                               120                                                                                               60
                               110                                                                                               55




                                                                                                                                       Returns Examined (Thousands)
   Returns Filed (Thousands)




                               100                                                                                               50
                               90                                                                                                45
                               80                                                                                                40
                               70                                                                                                35
                               60                                                                                                30
                               50                                                                                                25
                               40                                                                                                20
                               30                                                                                                15
                               20                                                                                                10
                               10                                                                                                5
                                0                                                                                                0
                               FY 1996    FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002     FY 2003   FY 2004   FY 2005

  Source: IRS Data Book.

Figure 46. Examination Coverage of Gift Tax Returns. In FY 2005, the number of gift tax
returns filed decreased by almost 8 percent, but the number of returns examined increased by just
over 7 percent.
                                                    Returns Filed                                     Returns Examined
                               400                                                                                               3.5

                               350                                                                                               3.3          Returns Examined (Thousands)
   Returns Filed (Thousands)




                               300                                                                                               3.0

                               250                                                                                               2.8

                               200                                                                                               2.5

                               150                                                                                               2.3

                               100                                                                                               2.0

                                50                                                                                               1.8

                                 0                                                                                               1.5
                                FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002     FY 2003   FY 2004   FY 2005

  Source: IRS Data Book.

                                                                                                                                 Page 43
                                Trends in Compliance Activities Through Fiscal Year 2005




Figure 47. Other Compliance Contacts on Forms 1040. The number of contacts decreased
for math error cases during FY 2005 but increased for the other types of compliance contacts.
The spike in math error cases for FY 2002 was the result of taxpayer confusion over the Rate
Reduction Credit. Much of the spike in FY 2004 was due to Child Tax Credit issues.
                 14,000,000



                 12,000,000



                 10,000,000



                  8,000,000



                  6,000,000



                  4,000,000



                  2,000,000



                         0
                               FY 1996     FY 1997      FY 1998    FY 1999     FY 2000      FY 2001     FY 2002      FY 2003      FY 2004      FY 2005

                       FY 1996        FY 1997        FY 1998      FY 1999        FY 2000      FY 2001         FY 2002          FY 2003       FY 2004       FY 2005
    Math Error         4,750,771     5,983,944     5,668,906      6,552,290     5,751,462     6,082,967     13,315,765     4,024,981         7,342,484     3,163,794
    Underreporter      1,930,326      931,354      1,726,098      1,770,695     1,353,545     1,161,901      1,491,139     1,561,068         1,948,363     2,837,149
    ASFR               719,913        392,598        426,495       584,142       332,427       333,770          242,637        466,816       1,585,259     2,155,074

  Source: IRS Data Book.

Figure 48. Other Compliance Contacts – Percentage of Coverage on Forms 1040. The
levels of coverage decreased for math error cases during FY 2005 and increased for the other
types of compliance contacts. The math error aberrations in FY 2002 and 2004 were explained
in Figure 47.
                              FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY2003 FY 2004 FY 2005

  Math Error                  4,750,771 5,983,944        5,668,906     6,552,290     5,751,462   6,082,967        13,315,765    4,024,981 7,342,484          3,163,794
    Coverage Rate                  4.01%        4.97%          4.63%      5.25%          4.53%         4.70%         10.22%        3.08%          5.59%         2.38%

  Underreporter               1,930,326     931,354      1,726,098     1,770,695     1,353,545        1,161,901    1,491,139     1,561,068     1,948,363     2,837,149
    Coverage Rate                  1.66%        0.79%          1.43%         1.44%       1.08%          0.91%          1.15%        1.20%          1.49%        2.16%

  ASFR                          719,913     392,598       426,495        584,142      332,427         333,770       242,637       466,816      1,585,259     2,155,074
    Coverage Rate                0.62%          0.33%          0.35%      0.48%          0.27%         0.26%          0.19%        0.36%           1.21%        1.64%
 Source: TIGTA analysis of IRS Data Book.




                                                                                                                                                             Page 44
                      Trends in Compliance Activities Through Fiscal Year 2005




Figure 49. Numbers and Percentages of Examinations on Forms 1040. This chart shows the
numbers and percentages of examination coverage.

                     FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

Forms 1040A –
< $25,000
 Returns Examined    921,820   659,094   515,015   600,949   256,650   357,954   289,136   182,222   168,887   170,317
  Coverage Rate       2.00%     1.44%     1.14%     1.36%     0.60%     0.86%     0.71%     0.51%     0.50%     0.52%

Forms 1040 –
Nonbusiness
 Returns Examined
 < $25,000           155,125   157,978   104,050    76,215    51,567    55,624    90,781   197,005   245,470   292,033
   Coverage Rate      1.17%     1.21%     0.81%     0.58%     0.37%     0.40%     0.64%     1.09%     1.26%     1.48%
 Returns Examined
 $25,000 &
 < $50,000           259,794   196,489   165,168   103,340    63,742    67,109    71,966    94,825   135,041   185,965
   Coverage Rate      0.95%     0.70%     0.58%     0.36%     0.21%     0.22%     0.23%     0.30%     0.43%     0.60%
 Returns Examined
 $50,000 &
 < $100,000          196,582   140,330   121,384    77,698    51,954    53,433    69,620   105,400   113,944   145,641
   Coverage Rate      1.16%     0.77%     0.62%     0.37%     0.23%     0.23%     0.28%     0.41%     0.44%     0.57%
 Returns Examined
 $100,000 and over   129,320   119,575   100,079    80,038    68,616    64,259    80,483   106,565   151,969   138,085
   Coverage Rate      2.85%     2.27%     1.66%     1.14%     0.84%     0.69%     0.75%     0.98%     1.39%     1.19%

Forms 1040 –
Schedule C
 Returns Examined
 < $25,000           102,558    78,553    60,023    68,450    61,695    69,332    67,876    81,541    92,855   117,999
   Coverage Rate      4.21%     3.19%     2.37%     2.69%     2.43%     2.72%     2.67%     3.00%     3.15%     3.68%
 Returns Examined
 $25,000 &
 < $100,000           87,691    80,861    58,877    42,391    31,226    34,650    40,530    46,927    53,477    82,542
   Coverage Rate      2.85%     2.57%     1.82%     1.30%     0.93%     1.02%     1.18%     1.33%     1.47%     2.21%
 Returns Examined
 $100,000 and over    71,050    73,049    59,728    44,945    28,781    24,080    29,848    30,738    39,124    78,497
   Coverage Rate      4.09%     4.13%     3.25%     2.40%     1.48%     1.20%     1.45%     1.47%     1.86%     3.65%

Forms 1040 –
Schedule F
 Returns Examined
 < $100,000            7,944     5,868     3,949     2,832     1,384     2,104     1,709     1,997     3,104     1,603
   Coverage Rate      1.59%     1.28%     0.93%     0.68%     0.35%     0.55%     0.47%     0.57%     0.91%     0.48%
 Returns Examined
 $100,000 and over     9,662     7,446     4,507     3,415     2,150     3,211     1,932     2,076     4,003     2,626
    Coverage Rate     3.61%     2.75%     1.63%     1.23%     0.80%     1.18%     0.72%     0.78%     1.61%     1.01%
Source: TIGTA analysis of IRS Data Book.




                                                                                                           Page 45
                        Trends in Compliance Activities Through Fiscal Year 2005




Figure 50. Numbers and Percentages of Examinations on Business Tax Returns. This chart
shows the numbers and percentages of examination coverage.
                     FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005
Corporations –
Assets < $10
Million               46,568    56,323    41,818    28,268    18,623    14,332    14,655    13,608     7,294    17,858

  Coverage Rate       1.88%     2.22%     1.67%     1.16%     0.77%     0.60%     0.63%     0.58%     0.32%     0.79%
Corporations –
Assets $10 Million
and Over              12,891    12,972    11,830    10,537     9,212     8,718     8,443     7,125     9,523    10,829

  Coverage Rate      25.33%    24.29%    21.43%    19.05%    16.30%    15.08%    14.17%    12.08%    16.74%    20.02%

Form 1120S            19,809    23,898    25,522    21,169    15,200    12,437    11,646     9,695     6,402    10,417

  Coverage Rate       0.92%     1.04%     1.04%     0.81%     0.55%     0.43%     0.39%     0.30%     0.19%     0.30%

Partnership            7,636     9,811    10,082     7,991     6,539     5,070     5,543     7,871     6,226     8,489

  Coverage Rate       0.49%     0.59%     0.58%     0.43%     0.33%     0.25%     0.26%     0.35%     0.26%     0.33%

Fiduciary              4,701     5,753     6,890     6,382     7,318     7,070     7,206     6,068     4,438     6,591

  Coverage Rate       0.15%     0.18%     0.21%     0.19%     0.22%     0.20%     0.18%     0.17%     0.12%     0.18%

Employment            56,195    60,799    40,595    28,898    20,074    17,163    17,252    16,408    17,698    33,748

  Coverage Rate       0.20%     0.21%     0.14%     0.10%     0.07%     0.06%     0.06%     0.06%     0.06%     0.11%

Excise                32,900    24,701    19,858    12,562    10,294     8,169     8,426     8,756    12,560    16,563

  Coverage Rate       4.17%     3.14%     2.48%     1.53%     1.25%     0.96%     1.03%     1.05%     1.49%     1.98%

Estate                11,794    11,686    10,451     9,319     8,024     7,707     7,151     7,265     6,455     6,081

  Coverage Rate      14.47%    12.90%    10.22%     8.46%     6.89%     6.24%     5.84%     6.38%     7.41%     8.20%

Gift                   1,934     2,085     2,010     2,369     2,097     2,005     1,899     1,855     1,979     2,125

  Coverage Rate       0.89%     0.90%     0.79%     0.91%     0.72%     0.65%     0.63%     0.66%     0.69%     0.81%
Source: TIGTA analysis of IRS Data Book.




                                                                                                           Page 46
                  Trends in Compliance Activities Through Fiscal Year 2005




                                                                            Appendix VI

        Related Treasury Inspector General for Tax
               Administration Audit Reports

Prior Compliance Trends Reports:
   ¾ Management Advisory Report: Evaluation of Reduction in the Internal Revenue
     Service’s Compliance Activities (Reference Number 2000-30-075, dated May 2000).
   ¾ Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
     Number 2001-30-175, dated September 2001).
   ¾ Management Advisory Report: Analysis of Trends in Compliance Activities Through
     Fiscal Year 2001 (Reference Number 2002-30-184, dated September 2002).
   ¾ Trends in Compliance Activities Through Fiscal Year 2002 (Reference
     Number 2003-30-078, dated March 2003).
   ¾ Trends in Compliance Activities Through Fiscal Year 2003 (Reference
     Number 2004-30-083, dated April 2004).
   ¾ Trends in Compliance Activities Through Fiscal Year 2004 (Reference
     Number 2005-30-055, dated March 2005).
Collection Reengineering Reports:
   ¾ The New Risk-Based Collection Initiative Has the Potential to Increase Revenue and
     Improve Future Collection Design Enhancements (Reference Number 2004-30-165,
     dated September 2004).
   ¾ The Revised Collection Case Selection Criteria That Expedites Trust Fund Workload to
     the Field Appears Effective (Reference Number 2004-30-173, dated September 2004).
   ¾ Implementation of the Collection Field Function Consultation Initiative Was Carefully
     Coordinated, but Some Aspects Could Be Enhanced (Reference Number 2005-30-011,
     dated November 2004).
Examination Reengineering Reports:
   ¾ The Office Audit Redesign Pilot Was Effective in Meeting Its Goals, but Its
     Implementation Needs to Be Monitored (Reference Number 2004-30-033, dated
     January 2004).



                                                                                     Page 47
              Trends in Compliance Activities Through Fiscal Year 2005




¾ Many Aspects of the Field Examination Reengineering Pilot Were Effectively
  Implemented; However, Continued Monitoring Is Needed During the Nationwide Rollout
  (Reference Number 2004-30-116, dated June 2004).
¾ The High Income Taxpayer Strategy Was Effectively Implemented, Although Its Success
  Still Needs to Be Determined (Reference Number 2005-30-012, dated November 2004).




                                                                               Page 48
